No. 20-1538
In the Supreme Court of the United States

ANGELA W. DEBOSE, PETITIONER
V.
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES, RESPONDENT.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

REPLY BRIEF OF PETITIONER

ANGELA W. DEBOSE
Petitioner Pro Se
1107 West Kirby Street
Tampa, FL 33604
(813) 230-3023
awdebose@aol.com

RECEIVED
JUN 1 7 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

TABLE OF CONTENTS
PAGE

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii-iv

REPLY BRIEF OF PETITIONER

1

THE DOCTRINE OF RES JUDICATA WAS
UNMISTAKABLY APPLIED IN ERROR TO BAR
PETITIONER'S INDEPENDENT ACTION

2

THE CONFLICT AMONG THE CIRCUITS
HAS UNNECESSARILY CONFUSED AND
IMPROPERLY CONFLATED THE ULTIMATE
BURDEN OF PROOF WITH THE PLEADING
STANDARD

5

CONCLUSION

7

11.

TABLE OF CITATIONS
CASES

PAGE

Ackermann v. United States,
340 U.S. 193 (1950)

3

Adams v. United States ex rel. McCann,
317 U.S. 269 (1942)

5

Aldana u. Del Monte Fresh Produce N.A., Inc.,
741 F.3d 1349 (11th Cir. 2014)

3

Arthur v. Thomas,
739 F.3d 611 (11th Cir. 2014)

4

Baker v. Alderman,
158 F.3d 516 (11th Cir. 1998)

4

Calderon v. Thompson,
523 U.S. 538 (1998)

4

Carter v. Stanton,
405 U.S. 669 (1972)

2

Citibank, N.A. v. Citibanc Grp., Inc.,
724 F.2d 1540 (11th Cir. 1984)

4

Citibank, N.A. v. Data Lease Fin. Corp.,
904 F.2d 1498 (11th Cir. 1990)

3

Cooter Gell v. Hartmarx Corp.,
496 U.S. 384 (1990)

4

Cunningham v. Hamilton County, Ohio,
527 U.S. 198 (1999)

4

Davis v. Zahradnick,
600 F.2d 458 (4th Cir. 1979

3

Fox v. Brewer,
620 F.2d 177 (8th Cir. 1980)

4

Frederick v. Kirby Tankships, Inc.,
205 F.3d 1277 (11th Cir. 2000)

4

Gratton v. Great American Communications,
178 F.3d 1373 (11th Cir. 1999)

4

Hazel-Atlas Glass Co. v. Hartford Empire Co.,
322 U.S. 238 (1944)

1

Herron v. Beck,
693 F.2d 125 (11th Cir. 1982)

2

Horsley v. Rivera,
292 F.3d 695. 700 (11th Cir. 2002)

1

In re Murchison,
349 U.S. 133 (1955)

5

Jones v. City of Columbus,
120 F.3d 248 (11th Cir. 1997)

2

Klapprott v. United States,
335 U.S. 601 (1949)

3

Liberty Mut. Ins. Co. v. Rotches Pork Packers, Inc.,
969 F.2d 1384 (2d Cir. 1992)

2

Liljeberg v. Health Servs. Acquisition Corp.,
486 U.S. 847, 863 (1988)

3

Mahone v. Ray,
326 F.3d 1176 (11th Cir. 2003)

4

Meirovitz v. United States,
688 F.3d 369 (8th Cir.2012)

5

Offutt v. United States,
348 U.S. 11 (1954)

5

iv.
Pridgen v. Shannon,
380 F.3d 721 (3d Cir. 2004)

6

Pruitt v. Broth,
437 So. 2d 768 (Fla. Dist. Ct. App. 1983)

1

Reynolds v. McInnes,
338 F.3d 1221 (11th Cir. 2003)

4

Rozier v. United States,
701 F.3d 681 (11th Cir.2012)

4

Travelers Indem. Co. v. Gore,
761 F.2d 1549 (11th Cir. 1985)

3

Turner v. Pleasant,
663 F.3d 770 (5th Cir. 2011)

6

United States v. Aluminum Co. of America,
148 F.2d 416 (2d Cir. 1945)

2

United States v. Beggerly,
524 U.S. 38 (1998)

3,4,6

United States v. Buck,
281 F.3d 1336, 1341 (10th Cir. 2002)

4

United States v. Jones,
29 F.3d 1549 (11th Cir. 1994)

2

STATUTES AND RULES

PAGE

Federal Rule of Civil Procedure 12

1,6

Federal Rule of Civil Procedure 56

1,3

Federal Rule of Civil Procedure 60

passim

1
REPLY BRIEF OF PETITIONER
The sole question before this Court is whether a Rule 60(d)
motion is a continuation or re-litigation of the prior case and
foreclosed under the doctrine of res judicata. The Eleventh
Circuit incorrectly concluded that the Rule 60(d) motion was an
improper attempt to relitigate issues that were presented to the
district court. Rule 60(d) was designed to provide a party "with
a convenient and orderly method for attacking a final judgment,
even after the time for appeal had expired." Hazel-Atlas Glass Co.
v. Hartford Empire Co., 322 U.S. 238, 64 S.Ct. 997, 88 L.Ed.
1250 (1944).
The district court erroneously considered
Petitioner's action as a continuation or re-litigation of the prior
case, in holding the action was foreclosed under the doctrine of res
judicata. However, the action is neither precluded by federal nor
Florida law. In Pruitt v. Brock, 437 So. 2d 768 (Fla. Dist. Ct. App.
1983), the court expressly held, "Where relief is sought by
independent action... however, "[t]he action is not a continuation
of the action in which the judgment . under attack was entered.
A new complaint is filed, service of process is made and the new
action follows the same procedure as other civil
actions." Trawick, Florida Practice and Procedure § 26.8
(1982). Only by applying the preferred construction to rules of
procedure, is the intended purpose behind the rules' adoption:
that a case be determined on its merits.
The action was not a continuation, but arguably if it was, it
was a continuation of the Complaint and Independent Action'
that was improperly dismissed without prejudice and ordered to
be refiled. Because the refiled action was erroneously treated as
a continuation of the prior case, the district court improperly
converted the Respondent's 12(b)(6) motion to dismiss to a Rule
56 motion for summary judgment or Rule 12(c) motion for
judgment on the pleadings, without notice to Ms. DeBose of its
conversion. Although the defense may be resolved through a
motion for summary judgment, a court may only grant a Rule 56
or 12(c) motion "when there are no material facts in dispute, and
judgment may be rendered by considering the substance of the
pleadings and any judicially noticed facts." Horsley v. Rivera, 292
F.3d 695. 700 (11th Cir. 2002). The district court accepted
material beyond the pleadings and failed to give Ms. DeBose
notice of its conversion. The notice requirement is strictly
'Filed in district court, Case No. 8:19-cv-01132-JSM-AEP.

2

applied. Carter v. Stanton, 405 U.S. 669, 671, 92 S.Ct. 1232,
1234, 31 L.Ed.2d 569 (1972). The district court further erred in
not according Ms. DeBose an evidentiary hearing and discovery.
Jones v. City of Columbus, 120 F.3d 248, 253 (11th Cir. 1997).
The fact is, considering Respondent's admitted destruction of
Petitioner's evidence, the Eleventh Circuit misapprehended or
overlooked that Ms. DeBose never had a full or fair opportunity
to meaningfully litigate her case due to the serious misconduct of
Respondent's counsels.
I. THE DOCTRINE OF RES JUDICATA WAS UNMISTAKABLY
APPLIED IN ERROR TO BAR PETITIONER'S
INDEPENDENT ACTION
Contrary to the order and opinion itself, Respondent states
that the Eleventh Circuit did not affirm the District Court on the
doctrine of res judicata. This is simply a misstatement of the
record. The district court went beyond taking judicial notice of
the prior court's orders; it considered the veracity of the
Respondent's allegations and accepted the truth of facts that were
subject to reasonable dispute. In order for a fact to be judicially
noticed under Rule 201(b), indisputability is a prerequisite. 21 C.
Wright K. Graham, Federal Practice and Procedure: Evidence §
5104 at 485 (1977 Supp. 1994). It is not permissible for a court to
take judicial notice of a fact merely because it has been found to
be true in some other action. Id. Moreover, to deprive a party of
the right to go to the jury with her evidence where the fact was
not indisputable would violate the constitutional guarantee of
trial by jury. Accord United States v. Aluminum Co. of
America, 148 F.2d 416, 446 (2d Cir. 1945) (L. Hand, J.). Therefore,
"[a] court may take judicial notice of (an)other court's order only
for the limited purpose of recognizing the 'judicial act' that the
order represents or the subject matter of the litigation." United
States v. Jones, 29 F.3d 1549, 1553 (11th Cir. 1994) (quoting
Liberty Mut. Ins. Co. v. Rotches Pork Packers, Inc., 969 F.2d 1384,
1388 (2d Cir. 1992)). A "court may ... 'not [take judicial notice] for
the truth of the matters asserted in the other litigation..."' Liberty
Mut. Ins. Co., at 1388 (citation omitted).
The Eleventh Circuit overlooked the unresolved factual
disputes entirely, violating the established precedent in Herron v.
Beck, 693 F.2d 125 (11th Cir. 1982) by converting USFBOT's
opposition motion to a motion for summary judgment, without

3

notice to DeBose. Id. at 127-128. The law provides that a court
should be particularly careful to ensure proper notice to a pro
se litigant. Davis v. Zahradnick, 600 F.2d 458, 460 (4th Cir. 1979)
(holding the . . . notice must be sufficiently clear to be understood
by a pro se litigant and calculated to apprise Ned of what is
required under Rule 56").
Thus, despite the Respondent's argument, it was error to
apply res judicata as a bar to Ms. DeBose's Rule 60(d) Complaint
and Independent Action. The "doctrine of res judicata, or claim
preclusion, bars the filing of claims which were raised or could
have been raised in an earlier proceeding." Citibank, N.A. v. Data
Lease Fin. Corp., 904 F.2d 1498, 1501 (11th Cir. 1990). Rule 60
plainly allows DeBose to attack or challenge prior judgments,
without a res judicata effect. "The Supreme Court has made clear
that such independent actions must, if Rule 60(b) is to be
interpreted as a coherent whole, be reserved for those cases of
injustices which, in certain instances, are deemed sufficiently
gross to demand a departure from rigid adherence to the doctrine
of res judicata." Aldana v. Del Monte Fresh Produce N.A., Inc., 741
F.3d 1349, 1359 (11th Cir. 2014) (quoting United States v.
Beggerly, 524 U.S. 38, 46 (1998)) (internal quotations and citation
omitted). The Eleventh Circuit presumed the case was heavily
litigated because of interlocutory appeals Ms. DeBose filed to
preserve objection to certain orders. The interlocutory appeals
were not reviewed on the merits because of jurisdictional
challenges, given that the District Court declined Rule 54(b)
certification to allow the appeals to move forward.
The fact is that no prior court of competent jurisdiction ruled
on the claims in Petitioner's Complaint and Independent Action.
The Eleventh Circuit affirmed the District Court's conclusion that
there were no extraordinary circumstances that warranted relief
The usual rule of the Extraordinary
under Rule 60(d).
Circumstances doctrine is that a movant for Rule 60(b)(6) relief
must show extraordinary circumstances for that relief. Klapprott
v. United States, 335 U.S. 601 (1949); Ackermann v. United
States, 340 U.S. 193 (1950); see also Liljeberg v. Health Serus.
Acquisition Corp., 486 U.S. 847, 863 (1988) (Rule 60(b)(6) "should
only be applied in 'extraordinary circumstances"'). On the other
hand, Rule 60(d) is an equitable one; therefore, the proponent
must show a meritorious claim or defense and that the judgment
should not, in equity and good conscious, be enforced. Travelers

4

Indem. Co. v. Gore, 761 F.2d 1549, 1151 (11th Cir. 1985); United
States v. Buck, 281 F.3d 1336, 1341 (10th Cir. 2002). While Rule
60(d) provides extraordinary relief, it does not expressly require
extraordinary circumstances. See Fox u. Brewer, 620 F.2d 177,
180 (8th Cir. 1980) (noting that Rule 60(d) "provides
of
showing
a
relief on
for extraordinary
exceptional circumstances"). If "extraordinary" and "exceptional"
circumstances are interchangeable, extraordinary circumstances
can be found to require a court to reopen a judgment, Arthur v.
Thomas, 739 F.3d 611 (11th Cir. 2014); recall a mandate,
Calderon v. Thompson, 523 U.S. 538, 549-5059 (1998); or grant a
new trial, Frederick v. Kirby Tankships, Inc., 205 F.3d 1277, 1288
(11th Cir. 2000). Additionally, the Eleventh Circuit has found
extraordinary circumstances to be present when, after entry of
judgment, "events not contemplated by the moving party render
enforcement of the judgment inequitable." See Reynolds v.
McInnes, 338 F.3d 1221 (11th Cir. 2003); Citibank, N.A. v.
Citibanc Grp., Inc., 724 F.2d 1540, 1544 (11th Cir. 1984)
(requiring "false, material statement by the plaintiff of a fact that
would have constituted grounds ... "). See also United States v.
Beggerly, 524 U.S. 38, 46 (1998)(Relief is required in order to
prevent a grave miscarriage of justice). A "Herodian" fraud
litigation scheme of destruction, fabrication, fraudulent
concealment, and retaliatory action to deprive a plaintiff of her
personnel records and employment documents as evidence for
trial, qualifies. Ignorance, negligence, and even gross negligence
cannot excuse such misconduct—especially when notice and the
duty to preserve had already been triggered.
Respondent argues two leanings concerning finality, in
insisting that the district and appellate courts were correct to
pursue finality, on the basis of the sanctions' orders. Impliedly,
there is the inference that the sanctions order barred Petitioner's
Complaint and Independent Action. Notably, this is in conflict
with established federal authority. The federal test for finality is
whether the order "ends the litigation on the merits."
Cunningham v. Hamilton County, Ohio, 527 U.S. 198, 203-04
(1999). Sanctions are intended to prevent unfair prejudice to
litigants and to ensure the integrity of the judicial process. See
Gratton v. Great American Communications, 178 F.3d 1373,
1374 (11th Cir. 1999). Sanction orders are not final and not
immediately appealable prior to the entry of final judgment
ending the litigation in the trial court. See Mahone v. Ray, 326
F.3d 1176, 1180-81 (11th Cir. 2003) (citing Cooter Gell v.

5

Hartmarx Corp., 496 U.S. 384 (1990); Baker v. Alderman, 158
F.3d 516, 523 (11th Cir. 1998). The other inference is that finality
should trump fairness and thus trumps justice.
Were we writing on a blank slate, we might
argue against the majority's elevation
of finality over fairness, as did our dissenting
brothers in the 8th and 11th Circuits in
indistinguishable
cases,
arguing
that finality must not trump justice where a
court must correct a[n] ... enhancement that
all agree was imposed in error. Rozier v.
United States, 701 F.3d 681, 689-91 (11th
Cir.2012) (Hill, J., dissenting); Meirouitz v.
United States, 688 F.3d 369, 373 (8th Cir.2012)
(Bright, J., dissenting) ("without finality there
can be no justice ... [i]t is equally true that,
without justice, finality is nothing more than a
bureaucratic achievement.") petition for cert.
filed, (U.S. Nov. 20, 2012) (No. 12-7461).
This case represents text-book manifest injustice. [T]o perform
its high function in the best way 'justice must satisfy the
appearance of justice.' Offutt v. United States, 348 U.S. 11, 14, 75
S.Ct. 11, 13, 99 L.Ed. 11." In re Murchison, 349 U.S. 133, 136, 75
S.Ct. 623, 625, 99 L.Ed. 942 (1955). See also Adams u. United
States ex rd. McCann, 317 U.S. 269, 279, 63 S.Ct. 236, 241, 87
L.Ed. 268 (1942) (Frankfurter, J.) ("public conscience must be
satisfied that fairness dominates the administration of justice").
II. THE CONFLICT AMONG THE CIRCUITS HAS
UNNECESSARILY CONFUSED AND IMPROPERLY
CONFLATED THE ULTIMATE BURDEN OF PROOF WITH
THE PLEADING STANDARD.
"unnecessarily
Some federal courts
have
confused" independent actions for fraud on the court and the
doctrine of fraud on the court. Moore, supra, at § 60.81[1][b][v].
Although fraud on the court can be raised in a Rule 60(b)(3)
motion, in an independent action, or sua sponte by a court, "it is
a separate concept from the idea of an independent action in
equity for relief from a judgment." Moore, supra, at §

6

60.81[1][b][v]. This confusion also appears to be a source of the
inconsistencies that currently exist.
The Eleventh Circuit affirmed the district court "improperly
conflating the ultimate burden of proof with the pleading
standard." There is authority suggesting that a Rule
60(d)(1) independent action may not proceed where a Rule
60(b)(3) motion is available—i.e., the two are mutually exclusive.
See United States v. Beggerly, 524 U.S. 38, 46 (1998); Turner u.
Pleasant, 663 F.3d 770, 778 (5th Cir. 2011). The Eleventh Circuit
did not address the issue of how the district court should have
analyzed Respondent's Rule 12(b)(6) motion under the
circumstances.
Because Rule 60(b) allows relief more broad than
an independent action for fraud upon the court, and
determinations based on Rule 60(b) are reviewed only for abuse
of discretion, see Pridgen v. Shannon, 380 F.3d 721, 725 (3d Cir.
2004), an independent action for fraud upon the court should be
reviewed at least as deferentially. Fundamentally, this argument
confuses standard of review with burden of proof. We are quite
capable of taking full account of the narrow criteria for relief
present in an independent action for fraud upon the court without
altering the Federal Rules of Civil Procedure. Under the normal
de novo review that applies to a district court's grant of
a Rule 12(6)(6) motion to dismiss for failure to state a claim, the
Eleventh Circuit should have determined whether Ms. DeBose
alleged facts which, if true, provided a basis for relief under the
very demanding legal standard for fraud upon the court. In such
review, the court extends to the Appellant the full reach of
case law that prescribe required elements of "fraud upon the
court." The doctrine of res judicata would not have rendered Ms.
DeBose's Independent Action implausible under the, plausibility
standard. The Eleventh Circuit, in considering whether or not
Ms. DeBose had an opportunity to fully and fairly litigate her
case, did not take into account that Ms. DeBose was a blameless
party who was not required to predict Respondent's fraud. Had a
proper review been conducted of these issues, it would not have
led to the same result reached by the district court. The Eleventh
Circuit's Judgment cannot be affirmed.

7

CONCLUSION
The Court should decline to entertain the Respondent's
suggestion pulled from thin air that Petitioner is seeking an
advisory opinion or that the issues are not sufficiently compelling.
The Court should vacate and remand for the courts below to apply
the proper standard of review on the merits and the proper
burden of proof.
Submitted June 15th, 2021

Respectfully,

/14 dy1(7
Angela DeBose, Plaintiff
1107 W. Kirby St.,
Tampa, FL 33604
(813) 932-6959
awdebose@aol.com

